WIRELESS NETWORK SECURITY:
Internal Controls Can Be Improved


Report Summary:
Because of the security sensitive information contained in this report, we are only
providing a summary of the report.


                                     Report No. OIG-A-2012-003 | December 7, 2011
   NATIONAL RAILROAD
   PASSENGER CORPORATION
                                       Office of Inspector General

Date:        December 7, 2011

Subject:     Wireless Network Security: Internal Controls Can Be Improved
             (Report No. OIG-A-2012-003)

The Office of Inspector General (OIG) conducted an audit of Amtrak’s wireless network
security program. Our objectives were to (1) assess the adequacy of Amtrak’s internal
controls for wireless network security, and (2) assess the adequacy of Amtrak’s wireless
network security policies.


BACKGROUND
Amtrak has installed wireless networks to allow its employees and contractors to
connect their laptops to Amtrak networks where wired networks are difficult and costly
to implement. Wireless connections provide an economical and flexible solution to
accessing corporate systems and information.

Wireless connections are inherently risky because information is broadcast over radio
waves and can be accessed easily. Therefore, wireless networks are vulnerable to
attacks from unauthorized persons. Having effective internal controls over wireless
networks is critical to preventing the success of such attacks. Our audit focused on
Amtrak’s wireless security policy and practices as well as broader computer security
and usage policy.


SUMMARY OF RESULTS
While Amtrak’s Office of Information Security has generally taken adequate measures
to ensure that the company’s wireless networks are secure and protect company
information, some internal control weaknesses related to the wireless security program
exist, along with some gaps in wireless security policies. These conditions occurred
mainly due to weaknesses in oversight, policy enforcement, and the original security
system design, as well as the lack of routine policy updates. The security control
weaknesses related to encryption, passwords, and naming convention leave Amtrak
information at risk of unauthorized access, modification, or destruction. As our audit
progressed, we discussed these findings with Amtrak management officials, who
agreed and have begun taking corrective action. While we did not find any evidence of
                                                                                        2
                           Amtrak Office of Inspector General
             Wireless Network Security: Internal Controls Can Be Improved
                     Report No. OIG-A-2012-003, December 7, 2011

security breaches of the wireless network, the weaknesses we noted represent security
vulnerabilities and increase the risk of an undetected penetration of the network.


MANAGEMENT COMMENTS AND OIG RESPONSE
In commenting on a draft of this report, Amtrak’s acting Chief Information Officer
agreed with all of our findings and recommendations. The planned actions identified by
Amtrak are responsive to our recommendations.




OIG TEAM MEMBERS
David R. Warren, Assistant Inspector General, Audits

Vipul Doshi, Senior Director, Audits

Vijay Chheda, Audit Manager

Ben Davani, Senior Auditor, IT

Ashish Tendulkar, Senior Auditor, IT

Michael Baker, Senior Auditor, IT

Michael P. Fruitman, Principal Communications Officer
                                                                                           3
                        Amtrak Office of Inspector General
          Wireless Network Security: Internal Controls Can Be Improved
                  Report No. OIG-A-2012-003, December 7, 2011

         OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission        The Amtrak OIG’s mission is to

                               conduct and supervise independent and objective audits,
                                inspections, evaluations, and investigations relating to
                                agency programs and operations;


                               promote economy, effectiveness, and efficiency within
                                Amtrak;


                               prevent and detect fraud, waste, and abuse in Amtrak’s
                                programs and operations;


                               review security and safety policies and programs; and


                               review and make recommendations regarding existing and
                                proposed legislation and regulations relating to Amtrak's
                                programs and operations.

Obtaining Copies of OIG     Available at our website: www.amtrakoig.gov.
Reports and Testimony
To Report Fraud, Waste,     Report suspicious or illegal activities to the OIG Hotline (you
or Abuse                    can remain anonymous):

                            Web:      www.amtrakoig.gov/hotline
                            Phone:    800-468-5469

Congressional and           E. Bret Coulson, Senior Director
Public Affairs              Congressional and Public Affairs
                           Mail:     Amtrak OIG
                                     10 G Street, N.E., 3W-300
                                     Washington, D.C. 20002
                           Phone:    202-906-4134
                           Email:    bret.coulson@amtrakoig.gov
